United States Department of Agriculture
Office of Inspector General




American Recovery and Reinvestment Act
of 2009 - Broadband Initiatives Program -
Post-Award Controls




                                          Audit Report 09703-0002-32
                                          August 2013
                                      American Recovery and Reinvestment Act of 2009—
                                     Broadband Initiatives Program—Post-Award Controls

                                                     Audit Report 09703-0002-32

What Were OIG’s
Objectives
We assessed RUS’ controls
over BIP awardees’ fulfillment
of their grant and loan/grant
agreements (post-award             OIG reviewed how RUS administered and
controls) and evaluated the
effectiveness of BIP in            measured the outcome of about $3.5 billion
meeting and attaining              in Recovery Act program-level funding to
Recovery Act goals. We did         provide sufficient access to high-speed
not evaluate controls over jobs
created or preserved in this       broadband service to facilitate rural
audit, since they were covered     economic development.
by other OIG audit work.

What OIG Reviewed                  What OIG Found
To test RUS’ oversight             With the passage of the American Recovery and Reinvestment Act of
process, we statistically          2009 (Recovery Act), Congress authorized the Rural Utilities
sampled and reviewed               Service’s (RUS) Broadband Initiatives Program (BIP) to help bring
86 approved BIP applications       broadband to rural areas of the United States where residents might
that totaled $783.9 million of     otherwise not have access to this important technology.
the $3.5 billion in program-
level Recovery Act funding         The Office of Inspector General (OIG) reviewed 247 advances,
allocated to BIP.                  totaling $146,446,113, for 86 sampled awards and concluded that
                                   RUS’ advances of BIP funds were generally supported. However, we
What OIG Recommends                did find that, while BIP primarily financed last mile projects that
Generally, we                      provide service to end-users such as households and businesses, RUS
recommended that RUS               does not have adequate controls to measure and transparently report
capture and report actual          how effectively BIP is meeting its subscribership goals. Additionally,
performance data to measure        RUS administered the program differently than as outlined in the
the impact of each award,          Notice of Funds Availability (NOFA), such as allowing awards
formally notify BIP awardees       composed of greater than 75-percent grant components without
of the possibility to substitute   required waivers, or substituting equity for the loan portion—without
equity for the loan component,     adequately informing all prospective applicants. We found that RUS
and ensure grant/loan              approved 24 sampled round two infrastructure awards ($149,499,810)
combination funds are              that had a greater than 75-percent grant component without waivers.
advanced proportionally. We        Finally, we found RUS did not advance funds proportionally for 2 of
also recommended that RUS          the 86 BIP awards reviewed. These issues generally occurred because
develop and update guidance        RUS did not develop procedures and guidance outlining how various
on how to accomplish each of       processes were to be carried out.
these tasks.
                                   RUS agreed to strengthen BIP by establishing additional written
                                   guidance to address specific processes. We reached management
                                   decision on five of seven recommendations.
                                   .
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250

DATE:          August 22, 2013
AUDIT
NUMBER:        09703-0002-32
TO:            Doug O’Brien
               Acting Under Secretary
               Rural Development
               John C. Padalino
               Administrator
               Rural Utilities Service

ATTN:          John Dunsmuir
               Acting Director
               Financial Management Division

FROM:          Gil H. Harden
               Assistant Inspector General for Audit
SUBJECT:       American Recovery and Reinvestment Act of 2009—Broadband Initiatives
               Program—Post-Award Controls

This report presents the results of the subject audit. Your written response to the official draft
report, dated August 1, 2013, is included in its entirety at the end of this report. Excerpts from
your response and the Office of Inspector General’s (OIG) position are incorporated into the
relevant sections of the report.

Based on your agency’s written response, we are able to accept management decision on
Recommendations 1, 4, 5, 6, and 7. We can accept the Rural Utilities Service's management
decision on Recommendations 2 and 3 once we have been provided with the information, as
outlined in the report sections' OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................................... 1
Section 1: Broadband Initiatives Program (BIP) ............................................... 6
Finding 1: Performance Measures Do Not Effectively Show BIP Outcomes ... 6
         Recommendation 1 ......................................................................................11
         Recommendation 2 ......................................................................................12
         Recommendation 3 ......................................................................................12
Finding 2: Grant Award Components Were in Excess of 75 Percent Cap ..... 14
         Recommendation 4 ......................................................................................16
         Recommendation 5 ......................................................................................16
Finding 3: BIP Funds Were Not Always Proportionally Advanced ............... 18
         Recommendation 6 ......................................................................................19
         Recommendation 7 ......................................................................................20
Scope and Methodology ........................................................................................ 21
Abbreviations ........................................................................................................ 24
Exhibit A: Summary of Monetary Results ......................................................... 25
Exhibit B: Statistically Sampled Round Two Infrastructure Awards With
Grant Components Greater Than 75 Percent of Award Without Waivers .... 26
Exhibit C: Statistically Sampled BIP Awards................................................... 27
Exhibit D: Statistical Plan – Sampling Methodology and Analysis Results... 29
Exhibit E: Scope Information for Advances ..................................................... 34
Agency's Response ................................................................................................ 39
Background and Objectives

Background
The Rural Utilities Service (RUS), an agency in the Rural Development mission area, has been
responsible for administering several distinct broadband programs for the past 12 years.
Congress and the Administration acted in 2001 and 2002 to initiate pilot broadband loan and
grant programs within RUS. Subsequently, section 6103 of the Farm Security and Rural
Investment Act of 2002 authorized a loan and loan guarantee program to provide funds for the
costs of the construction, improvement, and acquisition of facilities and equipment for broadband
service in eligible rural communities. 1 RUS operates two assistance programs exclusively
dedicated to financing broadband deployment: the Rural Broadband Access Loan and Loan
Guarantee Program and the Community Connect Grant Program.

On February 17, 2009, the American Recovery and Reinvestment Act of 2009 (Recovery Act)
was signed into law and allocated a total of $7.2 billion for broadband programs—$2.5 billion to
RUS for the Broadband Initiatives Program (BIP) and $4.7 billion to the National
Telecommunications and Information Administration’s (NTIA) Broadband Technology
Opportunities Program. The stated purposes of the Recovery Act were to (1) preserve and create
jobs and promote economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring technological
advances in science and health; (4) invest in transportation, environmental protection, and other
infrastructure that will provide long-term economic benefits; and (5) stabilize State and local
government budgets, in order to minimize and avoid reductions in essential services and
counterproductive State and local tax increases. 2

In a March 20, 2009, Presidential Memorandum addressed to the heads of Executive departments
and agencies, the President stated that his Administration was committed to ensuring that public
funds were expended responsibly and in a transparent manner:

        In implementing the Recovery Act, we have undertaken unprecedented efforts to ensure the
        responsible distribution of funds for the Act's purposes and to provide public transparency and
        accountability of expenditures. We must not allow Recovery Act funds to be distributed on the
        basis of factors other than the merits of proposed projects or in response to improper influence or
        pressure. We must also empower executive department and agency officials to exercise their
        available discretion and judgment to help ensure that Recovery Act funds are expended for
        projects that further the job creation, economic recovery, and other purposes of the Recovery Act
        and are not used for imprudent projects. 3

RUS worked in collaboration with the Department of Commerce’s NTIA to implement these
new Recovery Act broadband programs. RUS was to provide $2.5 billion in BIP grants, loans,
and loan guarantees for broadband infrastructure in any area of the United States, provided that



1
  Public Law 107-171.
2
  Public Law 111-5, American Recovery and Reinvestment Act, February 17, 2009.
3
  President’s Memorandum of March 20, 2009, Ensuring Responsible Spending of Recovery Act Funds.

                                                                        AUDIT REPORT 09703-0002-32            1
at least 75 percent of the area to be served was a rural area 4 without sufficient access to high-
speed broadband service to facilitate rural economic development. The $2.5 billion budget
authority allowed RUS to provide about $3.5 billion in program-level funding. 5

For the Recovery Act broadband programs, RUS, NTIA, and the Federal Communications
Commission cosponsored public meetings to initiate public outreach on the current availability
of broadband service in the United States, and on ways in which the availability of broadband
services could be expanded. To accomplish the outreach, they included nearly 120 panelists—
including representatives from consumer and public interest groups, State and local
governments, tribal governments, minority and vulnerable populations, industry, academia, and
other stakeholders. Each provided comments on how to make the broadband initiatives
effective, equitable, and efficient. In addition to the information received about the new
programs during the public meetings, prior to issuing general policy and application procedures
for each round of BIP funding, RUS requested written comments from the public through a
“request for information” issued jointly with NTIA. 6 These requests generally sought public
comment to assist RUS in implementing BIP.

On July 9, 2009, via a joint Notice of Funds Availability (NOFA) and solicitation of
applications, RUS and NTIA announced general policy and application procedures for
broadband initiatives established pursuant to the Recovery Act—the first of two funding rounds.
For round one, RUS and NTIA solicited applications for approximately $4 billion in program-
level funding for both agencies. The BIP projects funded under round one were broadband
infrastructure projects, totaling $960,190,939.

For round two, RUS separately announced a NOFA on January 22, 2010, for approximately
$2.2 billion in program-level funding for BIP. There were significant differences in the project
requirements for round two projects compared to the round one requirements. For example,
RUS increased the percentage of grant-to-loan funding available for infrastructure projects.
Whereas the round one grant-to-loan ratio was 50/50 (i.e., each successful application could
receive an award 7 comprised of 50 percent grant and 50 percent loan), in round two the grant-to-
loan ratio was 75/25. Moreover, the NOFA announced that applications would also be accepted
for satellite projects, technical assistance, and rural library broadband grants.




4
  For purposes of BIP, “rural area” means any area, as confirmed by the 2000 census of the Bureau of the Census,
which is not located within: (1) a city, town, or incorporated area that has a population of greater than
20,000 inhabitants; or (2) an urbanized area contiguous and adjacent to a city or town that has a population of
greater than 50,000 inhabitants. For purposes of the definition of rural area, an urbanized area means a densely
populated territory as defined in the 2000 census.
5
  “Program level” is the sum of the activities supported or undertaken by an agency. Since RUS used BIP funds to
make grants and loans, the program level is larger than the budget authority because the loans are expected to be
repaid.
6
  Federal Register, volume 74, page 10716 (74 FR 10716), March 12, 2009, and 74 FR 58940, November 16, 2009.
7
  An award is a grant, loan, or loan/grant combination made under the NOFAs.

2     AUDIT REPORT 09703-0002-32
The following table describes how BIP funding was allotted across the two rounds:

                                      Number         Grant Amount       Loan Amount         Total Amount
         Project Type                of Awards         Awarded            Awarded             Awarded
Round One – Infrastructure
               (Round One Total)              61       $542,135,078        $418,055,861       $960,190,939
Round Two – Infrastructure                   236     $1,691,727,031        $773,788,717     $2,465,515,748
            Infrastructure Total             297     $2,233,862,109      $1,191,844,578     $3,425,706,687
Round Two – Satellite                          4       $100,000,000                  $0       $100,000,000
Round Two – Technical Assistance              19         $3,384,202                  $0         $3,384,202
Round Two – Rural Library                      0                 $0                  $0                 $0
               Round Two Total               259     $1,795,111,233       $773,788,717      $2,568,899,950
                     Grand Total             320     $2,337,246,311      $1,191,844,578     $3,529,090,889

Reviews of BIP

Congress, in enacting the Recovery Act, emphasized the need for accountability and
transparency in the expenditure of funds and provided $22.5 million to the Department of
Agriculture (USDA) Office of Inspector General (OIG) for oversight of USDA programs, grants,
and activities funded by the Act. The Recovery Act also requires that the Government
Accountability Office (GAO) conduct reviews of how Recovery Act funds are being used and
whether they are achieving their stated purposes to preserve and create jobs, as well as assist
those most affected by the recession.

GAO has issued three audit reports on the Recovery Act broadband programs. In the first report,
GAO found that RUS and NTIA were facing challenges and risks associated with the Recovery
Act funding, such as evaluating applications and overseeing funded projects. GAO
recommended that the agencies ensure sufficient time to review applications in round two,
develop contingency plans for oversight beyond fiscal year (FY) 2010, and develop program
performance measures. Both RUS and NTIA agreed with GAO’s findings and
recommendations. 8

GAO’s second report found that “the agencies consistently reviewed the applications and
substantiated the information as specified in the first-round funding notice,” although post-award
oversight was identified as a weakness, due to the lack of funding beyond September 30, 2010,
for both agencies. GAO therefore recommended that the agencies develop a contingency plan
targeting the agencies’ oversight resources to ensure that recipients of the Recovery Act funding
completed their projects in the manner consistent with their applications and awards. Neither
agency took a position on GAO’s recommendation, but noted steps were being taken to complete
their respective programs. 9



8
  Recovery Act: Agencies Are Addressing Broadband Program Challenges, but Actions Are Needed to Improve
Implementation (GAO-10-80, November 16, 2009).
9
  Recovery Act: Further Opportunities Exist to Strengthen Oversight of Broadband Stimulus Programs
(GAO-10-823, August 4, 2010).

                                                                    AUDIT REPORT 09703-0002-32            3
GAO’s third report, which was issued during the course of this OIG audit, covered (1) the
progress of Recovery Act broadband projects, (2) their effect on expanding access to and
adoption of broadband, and (3) any challenges awardees face in completing projects and agency
actions to address these challenges. GAO found that NTIA and RUS helped awardees address
multiple challenges in completing their broadband projects and that data limitations made it
difficult for NTIA and RUS to measure fully both the progress of Recovery Act broadband
projects and the effect that the Broadband Technology Opportunities Program and BIP have had
on expanding access to and the adoption of broadband. GAO specifically identified that NTIA
and RUS faced difficulties in ensuring the accuracy of projects’ subscribership data. Because
both agencies had taken steps to improve the quality of the subscribership data reported by
awardees, GAO made no recommendation to address this issue. GAO did recommend, however,
that RUS take steps to improve the quality of its data on the number of fiber miles and wireless
access points created by BIP projects. RUS disagreed with GAO’s characterization that RUS
does not collect adequate data, and stated that it has already taken steps to improve data quality.
GAO stated it believes that more reliable data will permit RUS to better assess the progress and
effectiveness of the BIP program. 10

We initiated a multiphase program of oversight related to Recovery Act funding to assist RUS in
achieving its Recovery Act objectives and to minimize the risks of inefficient or improper
actions that could put Government funds at risk. We coordinated our work with GAO to avoid
duplicating one another’s efforts. When GAO concluded that it would perform a multi-
Department review of broadband that included USDA and would follow up on our 2005 11 and
2009 12 audit report findings and recommendations, we deferred to GAO and postponed our
initial reviews of BIP until GAO had finished its work. This report presents the results of our
second phase review of BIP.

We previously completed our first phase of audit work for BIP, issuing an audit report on
March 29, 2013, on RUS’ internal controls over the approval of BIP applications. 13 Our first-
phase audit found that RUS complied with the provisions of the Recovery Act in how it
implemented the program. However, we did identify several issues with how RUS implemented
BIP, including that RUS funded BIP projects that sometimes overlapped with preexisting RUS-
subsidized providers and approved projects that would not be completed within the 3-year
timeframe RUS established and published. We also found the agency could have implemented
BIP to focus more on promoting economic development in those areas where rural residents
lacked broadband access. We recommended that, for future programs, RUS avoid funding
broadband projects in areas that are already served by RUS-subsidized providers, publish and
follow clearly defined project completion expectations, and focus broadband funding on rural
areas that do not have access to this technology.




10
   Recovery Act: Broadband Programs Are Ongoing, and Agencies’ Efforts Would Benefit from Improved Data
Quality (GAO-12-937, September 14, 2012).
11
   Rural Utilities Service Broadband Grant and Loan Programs (09601-0004-Te, September 30, 2005).
12
   Rural Utilities Service Broadband Loan and Loan Guarantee Program (09601-0008-Te, March 31, 2009).
13
   American Recovery and Reinvestment Act of 2009—Broadband Initiatives Program—Pre-Approval Controls
(09703-0001-32, March 29, 2013).

4     AUDIT REPORT 09703-0002-32
Objectives
Our objectives were to assess RUS’ controls over BIP awardees’ fulfillment of their grant and
loan/grant agreements (post-award controls). As part of the audit, we also evaluated the
effectiveness of BIP in meeting/attaining the goals of the Recovery Act. We did not evaluate
controls over jobs created or preserved in this audit, since OIG covered the subject in audit report
50703-0002-13, Data Quality Review of American Recovery and Reinvestment Act Jobs
Reported for USDA Programs, issued November 30, 2012.




                                                               AUDIT REPORT 09703-0002-32         5
Section 1: Broadband Initiatives Program (BIP)

Finding 1: Performance Measures Do Not Effectively Show BIP Outcomes
While BIP primarily financed last mile projects 14 that provide service to end-users, such as
households and businesses, we found that RUS does not have adequate controls to measure and
transparently report how effectively BIP is meeting its subscribership goals. 15 Specifically, RUS
does not have controls in place to measure how many BIP subscribers are in rural areas and were
previously unserved or underserved or to measure performance (subscribership) of BIP projects
on an individual basis. Second, RUS does not have adequate controls in place to ensure that
awardees submit reliable performance data or to compare actual performance to projected
results. This occurred because RUS did not anticipate the need to report on actual rural
subscribership. RUS is also hesitant to invest its limited resources in further revising its
information management systems, policies, and procedures for BIP—a one-time program. OIG
recognizes the consideration of investing additional limited resources for a one-time program.
However, without these controls in place, there is less assurance that BIP awards helped
accomplish the goals of the Recovery Act by providing broadband to rural residents who would
not otherwise have sufficient access to this service.

Office of Management and Budget (OMB) guidance provides that Federal agencies must take
steps to meet accountability and transparency requirements for the Recovery Act, including
clearly, accurately, and timely reporting how funds are spent, and what impact these funds had. 16
Additionally, internal control standards state that agencies should establish control activities—
policies, procedures, techniques, and mechanisms—to ensure actions are taken to address risks
and ensure that Government resources achieve intended results. 17 As part of control activities,
managers need to compare actual performance to planned or expected results throughout the
organization and analyze significant differences.

To help accomplish the purposes and goals of the Recovery Act, BIP supports the expansion of
broadband service in rural areas through financing and grants to projects that provide access to
high-speed service to facilitate economic development in locations without sufficient access to
such service. One goal of BIP is to “ensure that broadband service is provided to rural areas
lacking access, targeting under and unserved rural areas.” Rural Development’s Recovery
Act implementation plan states RUS will monitor and evaluate BIP benchmarks and performance
will be tracked quarterly. 18 To that end, RUS requires awardees to report quarterly, through
RUS’ Broadband Collection and Analysis System (BCAS), the number of households,

14
   A last mile project means any infrastructure project with the predominant purpose of providing broadband service
to end users or end-user devices (including households, businesses, community anchor institutions, public safety
entities, and critical community facilities).
15
   According to RUS, through the implementation of the Recovery Act, BIP will achieve the goal of ensuring that
broadband service is provided to rural areas lacking access, targeting underserved and unserved rural areas.
16
   OMB Memorandum M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act
of 2009, February 18, 2009.
17
   Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, page 11 (11/99).
18
   USDA Rural Development American Recovery and Reinvestment Act Implementation Plan, updated May 15,
2010.

6     AUDIT REPORT 09703-0002-32
businesses, educational providers, libraries, health care providers, and public safety providers
receiving new or improved broadband service through BIP. BCAS was originally designed for
RUS’ Rural Broadband Access Loan and Loan Guarantee Program to create borrower reports
and track their expenses on loans. 19 To enable BIP awardees to report their performance data,
RUS officials added “Part E. BIP Performance Measures” to the operating reports in BCAS. 20

RUS established a goal for BIP projects to provide new or improved broadband service to
359,450 subscribers. However, we found issues with how RUS collected data regarding this
performance measure and how RUS reported on the program outcomes.

         Collecting BIP Performance Data

         We found that RUS controls did not ensure awardee-reported BIP performance data
         distinguished between individual awards, rural and nonrural subscribers, or subscribers’
         previous status (unserved, underserved, or other), or that the data were reliable. The
         purpose of performance data is to gather information to assess reasonably and accurately
         the effectiveness of a program’s performance. Therefore, in the case of BIP, performance
         data should inform RUS of the degree to which BIP was able to expand broadband
         service in rural areas without sufficient access. Although awardees enter performance
         data in BCAS, it is RUS’ responsibility to ensure that the reported data are correct.

         First, we found that the data captured in BCAS did not provide key information necessary
         to determine project performance. Specifically, while awardees quarterly report on the
         number of “new” and “improved” BIP subscribers, they are not asked to distinguish
         whether subscribers are rural or nonrural, so the number of rural subscribers benefitting
         from BIP projects cannot be determined from the data, and there is no explanation as to
         how the “new” and “improved” categories correlate to subscribers who were previously
         unserved or underserved. According to a RUS official, RUS did not anticipate the need
         to report the numbers of subscribers in rural and nonrural areas. The RUS official
         pointed out that a BIP project’s eligibility is based, in part, on the rural nature of the
         geographic service area, i.e., the service area must be at least 75 percent rural, but not on
         the rural nature of the households in the service area. 21 Additionally, BCAS does not
         enable an awardee who received multiple BIP awards to report on the outcome of each
         award or project individually—each awardee’s performance data are reported in the

19
   BCAS tracks/collects broadband borrowers' historical and 5-year pro-forma financial data and actual
quarterly/monthly financial data.
20
   Part E is enabled in BCAS only for BIP awardees. In BCAS, there is no performance measure data entry for
(non-BIP) Rural Broadband Access Loan and Loan Guarantee Program awardees equivalent to “Part E. BIP
Performance Measures.” However, both non-BIP and BIP awardees complete BCAS “Part C. Subscriber
Information – Services” and “Part C. Subscriber Information – Communities,” which collect data for the totality of
the awardee’s business—not just that segment that is RUS-funded—on the rates and number of subscribers by
service type (e.g., voice, data, video, and other) and on the number of broadband data customers by community.
21
   The Recovery Act states that, overall, at least 75 percent of the area served by a BIP project must be “a rural area
without sufficient access to high speed broadband service to facilitate rural economic development, as determined
by the Secretary of Agriculture.” As reported in our first-phase review of BIP (Report 09703-0001-32), when RUS
implemented the program, it identified service areas as eligible if 75 percent of the geographic area was rural. The
agency did not consider where the premises (households, businesses, and critical community facilities) in the area
were located, however.

                                                                            AUDIT REPORT 09703-0002-32                7
        aggregate for all of the awardee’s awards. Therefore, RUS does not track the
        performance of individual projects in BCAS. For instance, 18 BIP awardees received
        multiple infrastructure awards, ranging from 2 to 16 awards per awardee. 22 RUS needs
        to track each project individually, or it will not be able to determine which projects
        meet—or do not meet—their expected outcomes. Generally, RUS officials indicated
        that, in the absence of additional funding to reprogram BCAS, they have no plans to
        change the functionality of the system.

        Second, RUS had inadequate controls to ensure that awardee-reported BIP performance
        data were accurate, complete, and consistent, even though RUS had made efforts to
        improve the data integrity. In a September 2012 report, GAO noted discrepancies in the
        number of BIP subscribers receiving new or improved broadband service reported by
        awardees in quarterly performance data. 23 Consistent with GAO’s findings, our review
        identified that for 19 of the 86 sample awards, BIP performance data submitted by the
        awardee were unreliable for the quarter ending March 31 or June 30, 2012. 24 In 4 of the
        19 cases, the awardees were unable to provide documentation to support fully their
        reported data; in 1 case, a RUS employee misinformed the awardee about the reporting
        requirements, and in the remaining 14 cases, awardees were unclear on the reporting
        requirements. We concluded that RUS provided insufficient written guidance to
        awardees and RUS staff. Specifically, the BCAS guide for awardees 25 does not provide
        awardees with any guidance on how to report BIP performance data. Similarly, RUS’
        BCAS guide for its staff provides only the following explanation of the features and use
        of the BIP performance measures in BCAS: “[r]eview the number of new subscribers by
        type or those subscribing to an improved broadband service.” 26

        In its September 2012 report, GAO did not make a recommendation to address the
        discrepancies in the awardee-reported performance data because RUS reported it had
        taken steps to improve the quality of the subscribership data reported by awardees.
        Specifically, RUS developed a spreadsheet tool for RUS staff use to review the
        subscriber data, note whether the data appear to be correct, and report how any problems
        with the data were resolved. However, we found that the spreadsheet tool implemented
        by RUS was not adequate to detect discrepancies in the numbers of subscribers reported
        by awardees.

                 We tested the BIP performance measures (numbers of subscribers) reported in the
                 March 2012 quarterly BCAS reports for 40 sample awards and compared the

22
   All awards for two of the awardees were subsequently rescinded by RUS.
23
   Recovery Act: Broadband Programs Are Ongoing, and Agencies’ Efforts Would Benefit from Improved Data
Quality (GAO-12-937, September 14, 2012).
24
   Based on our sample, we estimate that 65 awardees, or awards totaling $789 million, did not have adequate
documentation to support performance measure data submitted in BCAS for the quarters ending March 31, 2012,
and/or June 30, 2012. We are 95 percent confident that between 38 and 91 awardees have this issue, and 95 percent
confident that awards totaling between $342 million and $1.2 billion were affected. For additional sample design
information, see Exhibit D.
25
   “Electronic Collection of Broadband Data User’s Guide for the Broadband Collection and Analysis System.”
26
   “Broadband Collection and Analysis System User Guide for USDA Staff and Contractors,” version 1.1, May 29,
2012.

8     AUDIT REPORT 09703-0002-32
                 results of our review to the results of RUS’ spreadsheet tool for the quarter ending
                 March 31, 2012. 27 We identified eight awards for which awardees did not
                 accurately report the numbers of BIP subscribers that received new or improved
                 broadband service. RUS, using its spreadsheet tool, took exception to only two of
                 the eight cases we identified. The remaining six cases included:

                      •   One award for which the awardee had no documentation to support its
                          reported numbers of BIP subscribers,
                      •   One award for which the awardee rounded-up the number of subscribers
                          to the nearest thousand,
                      •   One award for which the awardee double-counted subscribers as receiving
                          both new and improved broadband service,
                      •   One award for which the awardee incorrectly reported all subscribers as
                          receiving improved service, although some only subscribed to new
                          service,
                      •   One award for which the awardee incorrectly reported BIP subscribers
                          when it had none, and
                      •   One award for which the awardee incorrectly reported only the
                          incremental change in the number of subscribers for the quarter.

                 For two additional awards, although we verified the performance data in BCAS
                 Part E were reliable and timely submitted, RUS staff incorrectly annotated on the
                 spreadsheet tool that the awardees were not reporting Part E (the BIP performance
                 measures).

                 Based on our sample, we estimate RUS’ spreadsheet tool for the quarter ending
                 March 31, 2012, was ineffective for 27 awards, or for an estimated $340 million
                 in BIP funds. 28 For its spreadsheet tool to be effective, RUS needs to ensure that
                 staff methodically perform their reviews and document their results on the
                 spreadsheet. We found, however, that RUS had no written procedures for
                 implementation of the spreadsheet tool.

        In September 2012, RUS officials shared with us draft instructions to be used to review
        BIP quarterly BCAS subscribership reports. Although RUS asserts it presented these
        procedures to its general field representatives during conference calls, RUS has not yet
        issued the procedures in final. When we spoke to RUS officials, they stated they have no


27
   The quarter ending March 31, 2012, was the first quarter for which RUS applied its tool for staff reviews of
awardee-reported subscribership data; at the time of our fieldwork, it was the most current quarter for which RUS
staff had completed reviews using the tool. The remaining 46 sample cases (86 - 40) were technical assistance
awards (which did not require awardee-reported performance data), infrastructure awards that were rescinded, or
infrastructure or satellite awards for which OIG staff tested BCAS reports other than those for March 2012. For
consistent comparison with RUS’ review results, we limited our analysis to the 40 sample awards to determine the
effectiveness of the control.
28
   We are 95 percent confident that between 9 and 45 awards have this issue, and 95 percent confident that awards
totaling between $77 million and $603 million were affected. For additional sample design information, see
exhibit D.

                                                                         AUDIT REPORT 09703-0002-32                 9
        plans to revise either the BCAS guide for awardees or the BCAS guide for staff relative
        to Part E, since that part is specific to BIP—a one-time program. However, we
        recommend RUS clarify guidance in both BCAS guides because awardee reporting may
        extend into 2020.29 With clear guidance in the BCAS user guides, RUS can better ensure
        data reliability, monitor the performance measure data reported by the awardees, and
        track and report the outcomes of projects.

        Reporting Performance Results

        Additionally, we found that RUS was not reporting the performance data that it had
        gathered. RUS established a goal for BIP projects to provide new or improved
        broadband service to 359,450 subscribers. In 2010, RUS stated it exceeded this goal
        because it estimated BIP projects would provide new or improved service to
        847,239 subscribers. However, in its September 2012 report, GAO reported that RUS
        data on the effects of BIP projects on broadband adoption may not be accurate.
        Specifically, GAO noted that RUS’ total does not reflect actual program outcomes,
        because it is based on the projected numbers of BIP subscribers estimated by applicants
        prior to the execution of their funded projects.

        Consistent with GAO’s findings, we learned RUS did not disclose the actual numbers of
        BIP subscribers on Rural Development’s Recovery Act broadband webpage or in
        USDA’s FY 2010 Performance and Accountability Report. Instead, RUS’ published BIP
        results of 847,239 subscribers were the total projected subscribers for all BIP awards. In
        contrast, we found that, as of December 31, 2012, awardees reported only 105,001 actual
        BIP subscribers to date. A RUS official explained that published performance data are
        designed to account for obligations for the year in question—FY 2010, in the case of BIP.
        Since BIP projects were just getting started in FY 2010 (the year in which BIP funds
        were obligated), and subscribers associated with the BIP awards had not yet received the
        service, the available performance results metric was the number of subscribers projected
        in the awarded applications. While we acknowledge these limitations, RUS does gather
        actual performance data on a quarterly basis for BIP projects and should—when data are
        available—present these data to the general public. (We also identified that RUS had
        reported incorrect numbers of BIP subscribers in the BIP performance goals on the Rural
        Development Recovery Act broadband webpage 30 and in the “telecommunication




29
   BIP awardees are required to fully complete projects no later than 3 months prior to the September 30, 2015,
expiration date (after which time no BIP funds can be expended) and to continue to report performance measures
5 years after project completion.
30
   RUS’ published BIP performance goal (target) of 39,325 subscribers (households and businesses) receiving new
broadband service was understated. According to RUS, the correct number is 50,050.

10      AUDIT REPORT 09703-0002-32
        services (broadband)” results in the FY 2010 Performance and Accountability Report. 31
        RUS officials promptly corrected the error on the Recovery Act broadband webpage
        during the audit upon notification by OIG.)

        In April 2013, RUS published on its website its first quarterly “Status of Broadband
        Initiatives Program” report, which, according to RUS officials, includes the total number
        of subscribers that are actually receiving new or improved broadband service through
        BIP. This “BIP Status Report As of 4/3/13” shows 106,423 total BIP subscribers. 32 We
        believe the report is an important step by RUS to ensure the level of transparency
        required by the Recovery Act, “which in turn enhances the [G]overnment’s effectiveness
        and improves the quality of its decisions.” To improve further transparency, RUS should
        contrast the current numbers of subscribers (106,423) with the projected results of the
        program (847,239).

While RUS has taken steps to address internal control deficiencies, it needs to take further steps
to provide better reporting of BIP outcomes. Without reliable data identifying individual awards,
rural and nonrural areas, and unserved and underserved subscribers, RUS and the general public
cannot properly gauge the effectiveness of BIP. According to RUS’ stated purpose for the
program, BIP is intended to “[support] the expansion of broadband service in rural areas through
financing and grants to projects that provide access to high speed service to facilitate economic
development in locations without sufficient access to such service.”

Recommendation 1
Capture and report performance data that directly measure the impact of each award on the
expansion of broadband service in underserved and unserved rural areas.

Agency Response
Rural Development officials stated that RUS cannot provide data related directly to new or
improved broadband service solely within underserved or unserved rural areas of an awardee’s
total service area, as that level of detail is not set out in RUS’ legal agreement with awardees.
The Office of the General Counsel (OGC) advises that such a new requirement would raise legal
issues. In addition, RUS would have to make substantial changes to its reporting system. Given
that BIP is a one-time program for which all projects must be completed by September 30, 2015,
the agency does not believe such use of taxpayer funding would be appropriate.



31
   RUS’ published “telecommunication services (broadband)” “actual” results of 660,000 subscribers receiving new
and/or improved “telecommunication services (broadband)” was understated. (Note: these telecommunications
program data included subscribers for BIP, RUS’ telecommunications loans, and RUS’ “Farm Bill Broadband
program.”) The correct number of “actual” subscribers receiving new and/or improved “telecommunication services
(broadband)” is 980,000 (983,933 rounded to the nearest hundredth of a million), according to the Rural
Development “Management’s Discussion and Analysis” for FY 2010 (which accompanied the consolidated
financial statements, footnotes, and supplemental information, to reflect the activities of the Rural Development
mission area of USDA), and confirmed by RUS.
32
   We did not validate the information in the report.

                                                                     AUDIT REPORT 09703-0002-32              11
Moreover, Rural Development officials stated that, while they believe that subscriber numbers
are more than just financially important, they do not believe that such numbers are the measure
of success of BIP. In addition to bringing crucial utility infrastructure to rural areas for future
economic growth, RUS also believes the success of the BIP program is tied to the Recovery
Act’s purpose of job creation, which large-scale infrastructure project such as these undoubtedly
create. Rural Development officials stated they feel the present public reporting of new or
improved broadband service throughout an awardee’s service area is an adequate measure of the
impact of each award.

OIG Position
We accept Rural Development’s management decision. We note that since BIP awardees are
required to continue to report performance measures 5 years after project completion, awardee
reporting may continue through September 2020.

Recommendation 2
Quarterly update the performance measurements on the Rural Development Recovery Act
broadband webpage to compare the actual numbers of BIP subscribers reported by awardees as
of the end of the quarter to the projected numbers of subscribers.

Agency Response
In the agency’s response, dated August 1, 2013, Rural Development officials stated RUS has
already begun publishing quarterly updates of awardees’ performance measurements on its
program webpage. Rural Development officials will also take steps in future reports to include
the number of subscribers projected to be connected through the program.

OIG Position
In order to reach management decision, RUS needs to provide a proposed completion date by
which time it will include in the future reports the projected number of subscribers for
comparison to the actual numbers of BIP subscribers reported by awardees.

Recommendation 3
To ensure better reliability of awardee-reported performance data, revise the Broadband
Collection and Analysis System (BCAS) guides for awardees and staff to provide detailed and
clear instructions relative to the entry and review of BIP performance data in BCAS.

Agency Response
Rural Development officials stated they understand there was some confusion with respect to the
new or improved subscribership numbers required in one section of the BCAS report, and that
they have developed additional guidance to better explain what should be reported in that

12     AUDIT REPORT 09703-0002-32
section. They will provide that written guidance to all active awardees by September 30, 2013.
In addition, the officials stated that, while OIG found some issues with the first field staff
reviews of the subscribership numbers reported each quarter by BIP awardees, Rural
Development officials have refined their practices and developed and distributed additional
written guidance for staff to improve the results of such reviews.

OIG Position
We cannot determine from the agency’s response whether the “additional written guidance”
developed by the agency specifically meets the recommendation. In order to reach management
decision, RUS needs to incorporate in its BCAS guides or other permanent directives the
“additional written guidance” for awardees and for staff and describe such guidance in enough
detail for us to determine whether it will ensure the performance data reported by awardees in
BCAS Part E are reliable.




                                                           AUDIT REPORT 09703-0002-32        13
Finding 2: Grant Award Components Were in Excess of 75 Percent Cap
The second round Notice of Funds Availability (NOFA) states that the standard BIP award
would be a grant/loan combination of 75 percent grant and 25 percent loan; applicants could
request a waiver for a larger grant component. However, we found that RUS approved
24 sampled round two infrastructure awards (totaling $149,499,810) that had greater than a
75-percent grant component without waivers (see Exhibits A and B). These issues occurred
because, generally, the NOFA did not include clear policy and procedures on the grant/loan
funding mix. As a result, qualified prospective applicants and awardees may not have known of
the various funding alternatives. With more complete knowledge of the funding alternatives,
some prospective applicants who did not apply to the program might have done so, and others
who did apply might have requested different BIP funding mixes than those awarded.

The second round NOFA “Overview” and “Funding Opportunity Description” sections state the
standard award is a combination of 75 percent grant and 25 percent loan, and that applicants may
request a waiver for more than 75 percent grant. 33 In contrast, the “Waiver for Grants Capped at
75% of Award for Last Mile and Middle Mile Projects” section states, “All Applicants may
request a grant that does not exceed 75 percent of eligible projects. An Applicant may apply for
a loan for any eligible project costs not covered by a grant under this NOFA. Applicants
requesting more than a 75-percent grant component must request a waiver from the
Administrator” (emphasis added). 34 The NOFA goes on to provide that the waiver request must
“[demonstrate the applicant’s] need for additional grant funding, as well as [five] factors set forth
in [the NOFA].” 35

We found that RUS approved awards with greater than a 75-percent grant component for
24 ($149,499,810) of the 64 ($663,906,904) sample round two infrastructure awards, even
though the awardees did not request waivers (see Exhibit B). According to RUS officials, RUS
did not require waivers to exceed the grant cap (“grant cap waiver”) unless the requested grant
amount was greater than 75 percent of the total project cost. For example, for a project with a
$20 million total cost, where the applicant requested a $10 million BIP award, comprised of an
$8 million grant and a $2 million loan, RUS would not have required the applicant to request a
grant cap waiver, because, in this case, the grant amount is 80 percent of the total award, but only

33
   75 FR 3822, I.B.3, January 22, 2010, states, “This Second Round NOFA… has a standard award of
75/25 grant/loan combination. It is important to note that applicants requesting a larger loan component will be
awarded more points in the scoring system and may have a greater likelihood of being funded. Applicants may
request more than a 75 percent grant component by submitting a waiver request to the Administrator, which
demonstrates their need for additional grant funding in accordance with the requirements of this Second Round
NOFA.” It also states on page 3825, III.A.1, “The standard award is a grant/loan combination of 75 percent grant
and 25 percent loan. Applicants may request a waiver for more than 75 percent grant in accordance with Section
VII of this NOFA, or may request a greater percentage of loan.”
34
   75 FR 3832, VII.A, January 22, 2010.
35
   75 FR 3832, VII.A, January 22, 2010. The five factors to be considered by the Administrator in granting a request
for waiver for a larger grant component were (1) the distance from the focus of the proposed funded service areas
from the closest nonrural area; (2) the percentage of the proposed funded service area that is above the 75 percent
(rural) requirement; (3) the population density of the proposed funded service area; (4) the median household
income of the proposed funded service area, relative to the median income level of the State; and (5) the State
unemployment level compared to the National Unemployment Level in the State of the proposed funded service
area (see 75 FR 3832, VII.B, January 22, 2010).

14      AUDIT REPORT 09703-0002-32
40 percent of the total project cost. We noted, however, the round two application guide 36 to
assist applicants in completing BIP applications states, “[the application system 37] calculates and
displays the Grant Request as a percentage of the Total Requested Award. Applicants requesting
more than a 75-percent grant component must request a waiver demonstrating their need for
additional grant funding.” The round two application guide also provides, “Applicants determine
the dollar amount of the grant and loan they are seeking. A standard request is for 75% grant and
25% loan.”

In short, the NOFA was not clear as to whether the 75-percent grant cap was to be applied to the
total award amount or to the total project cost. The application guide supports the former
interpretation, while RUS applied the latter. 38

Moreover, for the 24 awards we questioned, RUS officials explained that RUS allowed the
awardees to substitute equity, in whole or in part, for the loan components of the awards.
According to a RUS official, RUS did not anticipate applicants would propose substituting
equity for the loan component. RUS provided that when this situation arose, the circumstances
were presented to the Under Secretary, OGC, and the Administrator, and it was determined that,
if an applicant substituted equity for the 25-percent loan component, this met the requirements of
the program. According to an OGC official, the issue of substituting equity for the loan
component was raised principally in response to awardees notifying outstanding creditors of their
awards, and the difficulty the awardees had in getting lien releases to share the assets (with RUS)
in order to close the awards. The OGC official also stated that the substitution was advantageous
(to the Government) for several reasons. 39

RUS officials acknowledged the NOFA did not clearly define provisions for substituting equity
for the loan component, but believed they had sufficiently informed awardees through
workshops held across the country, answers posted to frequently asked questions, and responses
provided to helpdesk phone calls. While RUS made these resources available to applicants prior
to the application deadline, the second round NOFA, which prospective applicants used to
determine if they were eligible to apply for the program, did not mention the possibility of
substituting equity for loan components. We did not perform audit work to assess whether each
awardee was aware of the option of substituting equity for the loan component. We also noticed




36
   “Rural Utilities Service Broadband Initiatives Program Round Two Application Guide Last Mile and Middle Mile
Projects,” issued March 9, 2010.
37
   Easygrants online application system provides templates for many of the required attachments. Applicants enter
information directly into the templates and upload the completed files into Easygrants.
38
   Note: the application guide states that “[t]he NOFA MUST be used in conjunction with this Application Guide to
prepare an application. Should any information in this Application Guide differ from information contained in the
NOFA, the NOFA takes precedence.”
39
   According to the OGC official, (1) given that an awardee could prepay its debt on the loan (even immediately
upon receiving advances), it was seen as a waste of Recovery Act resources to force an awardee to take the loan if it
actually jeopardized closing the award; (2) given that the awardees were not aware of the potential option at the time
of application, this mitigated any attempt at “fudging” the budget; (3) the awardees had to put up the funds so that
there was no risk to the project; and (4) if the awardee did not take the loan, the agency could leverage those
foregone Recovery Act loan amounts into more projects in the second round, and thus more jobs.

                                                                        AUDIT REPORT 09703-0002-32                15
that, post-award, RUS rescinded the loan components of four awards not in our sample and
allowed the awardees to substitute equity for the loan components. 40

While we do not necessarily take issue with RUS’ decisions to apply the grant cap to the total
project costs and to allow the substitution of equity for the loan component of awards, RUS
should have consistently and transparently informed all awardees and applicants of these
policies. Because RUS did not, qualified prospective applicants may not have known of the
various funding alternatives. With more complete knowledge, some who did not apply to the
program might have done so, and some who did apply might have requested different BIP
funding mixes.

Recommendation 4
To ensure transparency and equitable treatment of BIP awardees, to the extent practicable,
formally notify all BIP awardees whose awards include loan components that RUS may allow
them to substitute equity for the loan component.

Agency Response
Rural Development officials stated that, “while [they] appreciate OIG’s suggestion that RUS
notify all BIP awardees of their ability to substitute equity for the loan, [they] believe that at this
late date, [RUS] would be overburdened by such an undertaking, while it is concentrating on
providing advances to complete projects before the statutory deadline that funds may be used.”
According to the officials, “at this stage, OGC has advised against sending out such
correspondence, given that such actions would necessitate enormous amounts of limited RUS
and OGC resources to effectuate the changed legal relationships for no benefit to awardees,
because the documents already provide an existing legal right to prepay the loan with no
penalty.” Additionally, the officials stated that “there was no legal benefit conferred to awardees
in which the loan component was substituted with equity, such that no present awardee is
disadvantaged.”

OIG Position
We accept Rural Development’s management decision.

Recommendation 5
For future broadband programs, publish and follow clear and consistent policies and procedures
relative to grant/loan funding mixes. Specifically, such policies and procedures should clearly
describe the proportional relationships of a project’s grant, loan, and equity components to the
total award and to the total project costs, to include any limits thereon.



40
  When we questioned the four awardees about the rescissions, the awardees generally stated that collateral, lien,
and reorganization issues necessitated the rescissions.

16      AUDIT REPORT 09703-0002-32
Agency Response
The agency believes it published and followed clearly defined policies and procedures relative to
the grant/loan funding mixes. At this time RUS does not administer any other program which
includes both loan and grant funding components. Should that change in the future, RUS will
implement clear and concise written guidance defining policies and procedures for advancing
funds under new requirements.

OIG Position
We accept Rural Development’s management decision.




                                                           AUDIT REPORT 09703-0002-32         17
Finding 3: BIP Funds Were Not Always Proportionally Advanced
RUS did not advance BIP funds in correct grant and loan proportions for 2 of the 86 awards
reviewed. This occurred because RUS has no specific written procedures explaining how to
advance BIP funds for awards that are combinations of grant amounts and loan amounts
(grant/loan combinations), including those for which equity was substituted for the loan
component. As a result, RUS prematurely advanced $1,003,629 in BIP funds for two awards
(see Exhibit A); thus, those awardees did not share proportionally with RUS in the risk of
completing their projects, which totaled $8,304,608.

GAO’s Standards for Internal Control in the Federal Government state that control activities are
an integral part of an entity’s planning, implementing, reviewing, and accountability for
stewardship of Government resources and achieving effective results. Control activities are the
policies, procedures, techniques, and mechanisms that enforce management’s directives. They
help ensure that actions are taken to address risks. The standards provide that internal control
and all transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination. The documentation should appear in
management directives, administrative policies, or operating manuals and may be in paper or
electronic form.

The NOFAs for both BIP funding rounds state that RUS makes grant and loan advances at the
request of the awardee according to the procedures stipulated in the award documents, and that
grant/loan combination funds are advanced in proportion to the amount of the award made in the
form of grants and loans. The BIP agreement states: “Grant funds must be advanced
concurrently with Loan funds in the same proportion as the Grant is to the total Award.”
According to a RUS official, “It was decided to prorate the advances based on the loan and grant
amounts to ensure that all loan funds would be requested to complete the project while still
providing the benefit of grant funds. Experience has shown that if grant funds are advanced first,
some awardees [do not draw] their loan components.” Additionally, RUS’ “Broadband
Initiatives Program Frequently Asked Questions Round 2 Applications” states, if the applicant
substitutes equity in lieu of the loan component of the award, the applicant will be required to
use equity funds on a pro rata basis with grant funds for each advance. For example, if an
applicant receives a grant for 75 percent of the project cost and substitutes equity in lieu of the
25-percent loan component, when the applicant requests an advance, 75 percent of the advance
funding should come from the grant award, and the applicant will be required to use its equity to
fund the remaining 25 percent of the request.

We identified that, for 2 of our 86 sample awards, RUS did not advance BIP funds
proportionally. 41 The disproportional advances identified by OIG totaled $2,501,546, when RUS
should have advanced only $1,497,917—a difference of $1,003,629 (see Exhibit A). For each of
the two awards, RUS allowed the awardee to substitute equity for the loan component, but did
not advance funds according to the amount of the award attributed to grants and loans. Instead,

41
  We limited our review of advances for the sampled awards to those advances processed in Rural Development’s
Commercial Loan Servicing System within our scope cutoff date of March 31, 2012. If an award had five or less
advances within our scope, we reviewed all of the advances. For those awards with more than five advances within
our scope, we statistically selected five advances for review.

18      AUDIT REPORT 09703-0002-32
RUS advanced as grant funds 100 percent of the amounts requested. During the audit, RUS
officials acknowledged that they did not process the advances proportionally and stated that the
records would be adjusted and all future advances would be prorated.

This occurred because RUS had not taken necessary steps to inform awardees or RUS personnel
on how to request and advance funds proportionally. For example, awardees request grant/loan
advances from RUS by completing RUS Form 481, “Financial Requirement Statement” (FRS).
Despite RUS’ decisions to prorate advances for grant/loan combination awards, including those
for which equity was substituted for the loan component, RUS did not update its FRS
instructions for staff and for awardees to address FRSs for grant/loan combinations and for
grants—the instructions relate only to loans. Additionally, RUS officials acknowledge that RUS
has no written instructions detailing its procedures on the advance of BIP funds when a
grant/loan combination of funds is awarded, to include when equity is substituted for the loan
component of such an award.

In one of the cases, the awardee informed us that neither the RUS general field representative nor
the RUS engineer could provide guidance on how to report the awardee’s equity contribution on
the FRS. The other awardee told us that it did not enter the amount of equity on the FRS because
it believed RUS was to enter these amounts. The awardee also told us RUS did not notice
omission of the equity amounts on the first three FRSs, but caught it on the fourth and told the
awardee to enter the equity amounts on future FRSs.

Without written procedures to implement RUS’ policies on proportional advances, RUS’
controls are inadequate to ensure that awardees proportionally share in the risk of project
completion. If RUS disproportionally advances funding and depletes Federal funds first—as it
was doing in the two awards cited above—RUS assumes a proportionally greater risk than the
awardee in the project. According to RUS’ “BIP Status Report As of 4/3/13,” 94.2 percent of
BIP infrastructure projects still are actively drawing funds. In addition, the current Senate Farm
Bill draft (S. 10) authorizes USDA to begin providing combinations of grants and loans for the
expansion of broadband service under RUS’ traditional Farm Bill broadband program, currently
the “Rural Broadband Access Loan and Loan Guarantee Program.” Therefore, we maintain that
RUS needs to implement clearly documented controls to ensure future advances are proportional.

Recommendation 6
Review all grant/loan combination awards that are still actively drawing funds, including those
for which equity was substituted for the loan component, to ensure the advances already made
were proportional. For all identified as disproportional to the funding ratio, take corrective
action.

Agency Response
Rural Development officials stated that, while RUS already ensures funds are being advanced
appropriately when advancing funding on a project, they will also go back and review each BIP
award to ensure that funds were, and are, being advanced correctly in proportion to the amount


                                                            AUDIT REPORT 09703-0002-32        19
of loan, grant, or equity funding awarded to each project. This review will be completed by
September 30, 2013.

OIG Position
We accept Rural Development’s management decision.

Recommendation 7
Implement written procedures to ensure future grant/loan combination funds are advanced in
proportion to the amount of the award made in the forms of grants and loans, including those for
which equity was substituted for the loan component.

Agency Response
RUS has developed written procedures for staff which will ensure all future loan/grant
combination awards are advanced in proportion to the amount of loan, grant, and equity funding
associated with the project. The agency has incorporated this additional written guidance into
FRS Staff Instructions and distributed the updated guidance to staff.

OIG Position
We accept Rural Development’s management decision.




20     AUDIT REPORT 09703-0002-32
Scope and Methodology
We conducted our audit of BIP from March 2012 through July 2013. We performed site visits at
RUS’ national office in Washington, D.C., and at awardee headquarters for the sample awards
(see Exhibits C and D). This audit focused on RUS’ post-award controls and was the second
phase in our multiphase review of BIP. (Our first-phase BIP audit focused on RUS’ pre-award
controls. See Report 09703-0001-32, issued in March 2013.)

To accomplish our objectives, we:

   •   Identified and became familiar with the Recovery Act and other laws, OMB guidance,
       NOFAs, regulations, legal opinions and decisions, RUS program objectives, and RUS
       policies and procedures applicable to the scope of the audit;
   •   Examined RUS’ instructions to its general field representatives and field accountants to
       provide oversight of BIP;
   •   Reviewed prior audit reports (OIG, GAO, non-Federal) and a Congressional Research
       Service report to become familiar with any identified relevant weaknesses;
   •   Reviewed RUS-performed risk assessments;
   •   Identified and became familiar with areas of concern expressed by the Secretary or staff,
       RUS officials, Congress, the news media, or others, including complaints to the OIG
       hotline;
   •   Reviewed USDA’s Federal Managers’ Financial Integrity Act report for material internal
       control weaknesses applicable to the scope of the audit and any corrective action taken or
       planned to address such weaknesses;
   •   Reviewed RUS’s Recovery Act Plan and became familiar with how RUS planned to
       implement BIP;
   •   Interviewed RUS national office officials and reviewed documentation RUS provided to
       become familiar with RUS’ operating procedures regarding the administration of its post-
       award process;
   •   Interviewed representatives of one of RUS’ contract companies to determine the
       contractor’s role and responsibilities as they relate to the BIP post-award process;
   •   Gained an understanding of the existence, relationship, impact, and pervasiveness of
       information systems and any related internal controls within the context of the audit
       objectives;




                                                           AUDIT REPORT 09703-0002-32         21
     •   Used RUS and awardee records to corroborate data obtained from BCAS 42 and the
         Commercial Loan Servicing System; 43
     •   Statistically sampled, and reviewed advances for, 86 ($783,895,685) of
         284 ($3,156,641,638) BIP awards to test RUS’ post-award controls; 44 and
     •   Conducted field visits, interviewed awardees, and collected and reviewed documentation
         related to our audit objectives.

The following table describes how RUS awarded BIP funding across the audit sample awards:

                                          Number of         Grant Amount        Loan Amount         Total Amount
          Project Type                  Sample Awards         Awarded             Awarded             Awarded
Round One – Infrastructure
              (Round One Total) 45                    17        $50,066,621        $28,452,086         $78,518,707
                             46
Round Two – Infrastructure                            64      $510,678,420        $153,228,484        $663,906,904
               Infrastructure Total                   81      $560,745,041        $181,680,570        $742,425,611
Round Two – Satellite                                  3        $41,222,694                  $0        $41,222,694
Round Two – Technical Assistance                       2           $247,380                  $0           $247,380
                 Round Two Total                      69      $552,148,494        $153,228,484        $705,376,978
                        Grand Total                   86      $602,215,115        $181,680,570        $783,895,685

We limited our review of award advances for the sampled awards to those advances processed in
Rural Development’s Commercial Loan Servicing System within our scope cutoff date of
March 31, 2012. Technical assistance awards each had only one advance, but infrastructure and
satellite awards could have multiple advances. When sampled awards had five or fewer
advances within our scope, we reviewed all advances. For those awards with more than five
advances within our scope, we statistically selected five advances for review.


42
   We did not evaluate the effectiveness of BCAS or its controls, as it primarily is used to track/collect awardees’
financial data and is not used extensively to monitor BIP awardees’ fulfillment of their grant and loan/grant
agreements. We did review the BIP performance measures that are documented in BCAS and supported by awardee
records. However, since we obtained performance measure data directly from awardees, we did not rely upon
BCAS to obtain sufficient, appropriate evidence to support the findings presented in this report.
43
   We did not evaluate the effectiveness of the Commercial Loan Servicing System or its controls since this was
covered in other OIG audit work related to Rural Development's Financial Statements Audit for Fiscal Years 2012
and 2011 (85401-0002-11, November 13, 2012). We did conduct a review of selected advances processed in the
system on or before March 31, 2012. We verified the Commercial Loan Servicing System advance data to manual
documentation obtained from RUS and therefore did not rely upon the information system to obtain sufficient,
appropriate evidence to support the findings presented in this report.
44
   The audit universe of 284 awards consisted of the 320 applications approved for ($3,529,090,889) BIP funding,
less the 8 awards for which the recipients’ headquarters were located in Alaska (6), Hawaii (1), and American
Samoa (1), as well as the 28 awards that were rescinded at the time of sampling. We statistically selected 86 awards
for review; however, 3 awards were rescinded post selection. For reporting and analysis, we counted those three
awards as entries with no exceptions in any of the criteria we tested. This approach potentially leads to a small
underestimation. For additional sample design and analysis information, see Exhibit D.
45
   Includes two rescinded awards: Awardee ID NM1106-A40, which was comprised of a $632,225 grant and a
$632,225 loan, for a total award of $1,264,450; and Awardee ID WV1102-A40, which was comprised of a
$1,417,597 grant and a $1,475,459 loan, for a total award of $2,893,056.
46
   Includes one rescinded award: Awardee ID IL1105-B40, which was comprised of a $1,737,945 grant and a
$1,808,881 loan, for a total award of $3,546,826.

22       AUDIT REPORT 09703-0002-32
The audit sample included three satellite awards. Due to the large number of satellite broadband
installations on each advance, we statistically selected a sample of eligible incentive payment
requests (IPR) for review from each sample advance.

We evaluated the satellite awardees’ compliance with the grant agreements for each sample IPR.
We reviewed the awardees’ installation work orders and verified equipment installation and
service activation was done on the date and at the address that was requested for reimbursement
on the IPRs submitted to RUS. We reviewed and verified the subscriber invoice did not include
equipment, installation, or service activation fees or charges and the awardee was charging
subscribers the agreed-upon monthly service rate.

See Exhibit E for scope information for advances.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                                           AUDIT REPORT 09703-0002-32        23
Abbreviations
BCAS ......................... Broadband Collection and Analysis System
BIP ............................. Broadband Initiatives Program
FR ............................... Federal Register
FRS ............................ RUS Form 481, "Financial Requirement Statement”
FY .............................. Fiscal Year
GAO ........................... Government Accountability Office
IPR ............................. (Satellite) Incentive Payment Request
NOFA ......................... Notice of Funds Availability
NTIA .......................... National Telecommunications and Information Administration
OGC ........................... Office of the General Counsel
OIG ............................ Office of Inspector General
OMB .......................... Office of Management and Budget
Recovery Act ............. American Recovery and Reinvestment Act of 2009
RUS ............................ Rural Utilities Service
USDA......................... U.S. Department of Agriculture




24     AUDIT REPORT 09703-0002-32
Exhibit A: Summary of Monetary Results
Exhibit A summarizes the monetary results for our audit report by finding and recommendation
number.

Finding   Recommendation           Description          Amount             Category
   2            5             Unclear Procedures       $149,499,810 Funds To Be Put To
                              for Grant/Loan                        Better Use –
                              Funding Mix                           Management or
                                                                    Operating
                                                                    Improvement/Savings
   3              7           Disproportional            $1,003,629 Funds To Be Put To
                              Advance of Funds                      Better Use –
                                                                    Management or
                                                                    Operating
                                                                    Improvement/Savings
                      Total                            $150,503,439




                                                         AUDIT REPORT 09703-0002-32       25
Exhibit B: Statistically Sampled Round Two Infrastructure Awards
With Grant Components Greater Than 75 Percent of Award
Without Waivers
Exhibit B presents information on our sample round two infrastructure awards that were
comprised of greater than a 75-percent grant component. For each such award, the table below
shows the awardee ID, total BIP award, BIP grant amount, BIP loan amount, and grant
proportion of total BIP award.

     Awardee ID          Total          BIP Grant       BIP Loan       Grant Proportion
                       BIP Award         Amount         Amount        of Total BIP Award
   AR1102-AD39          $20,497,604      $20,497,604           $0            100%
   AR1102-AE39           $3,050,160       $3,050,160           $0            100%
   AR1102-B39            $7,285,202       $7,285,202           $0            100%
   AR1102-C39           $38,288,349      $38,288,349           $0            100%
   AR1102-F39            $5,129,575       $5,129,575           $0            100%
   AR1102-G39            $4,665,116       $4,665,116           $0            100%
   AR1102-K39           $27,644,292      $27,644,292           $0            100%
   AR1102-N39           $10,328,319      $10,328,319           $0            100%
   AR1102-P39            $1,005,566       $1,005,566           $0            100%
   AR1102-W39              $855,901         $855,901           $0            100%
   CO1109-A40            $1,641,785       $1,407,244     $234,541           85.71%
   MI1107-B39            $2,001,528       $2,001,528           $0            100%
   TX1115-C39            $2,112,950       $2,112,950           $0            100%
   WI1107-A39            $5,239,168       $5,239,168           $0            100%
   WI1116-A39              $639,218         $639,218           $0            100%
   WI1120-A39            $1,669,255       $1,669,255           $0            100%
   WI1121-A39            $1,655,504       $1,655,504           $0            100%
   WI1126-A39            $5,150,691       $5,150,691           $0            100%
   WI1129-A39            $1,143,784       $1,143,784           $0            100%
   WI1130-A39              $702,933         $702,933           $0            100%
   WI1135-A39            $2,021,197       $2,021,197           $0            100%
   WI1138-A39            $1,837,421       $1,837,421           $0            100%
   WI1142-A39            $3,570,745       $3,570,745           $0            100%
   WI1143-A39            $1,363,547       $1,363,547           $0            100%
       Totals          $149,499,810     $149,265,269     $234,541




26     AUDIT REPORT 09703-0002-32
  Exhibit C: Statistically Sampled BIP Awards
  Exhibit C presents information on our sample of 86 47 BIP awards—55 cities in 19 States. For
  each statistically selected sample award, the table below shows the recipients’ headquarters city
  and State, the application ID number, awardee ID, cluster number, cluster stratum, total award,
  applicable NOFA round, and project type (I = Infrastructure, S = Satellite, TA = Technical
  Assistance).

    Recipient Headquarters     Application     Awardee ID      Cluster    Stratum    Total Award    NOFA      Project
           City, State             ID                          Sample                               Round      Type
Little Rock, Arkansas             5261         AR1102-B39        55          1         $7,285,202     2          I
Little Rock, Arkansas             5262         AR1102-C39        55          1        $38,288,349     2          I
Little Rock, Arkansas             5265         AR1102-F39        55          1         $5,129,575     2          I
Little Rock, Arkansas             5266         AR1102-G39        55          1         $4,665,116     2          I
Little Rock, Arkansas             5268         AR1102-K39        55          1        $27,644,292     2          I
Little Rock, Arkansas             5271         AR1102-N39        55          1        $10,328,319     2          I
Little Rock, Arkansas             5272         AR1102-P39        55          1         $1,005,566     2          I
Little Rock, Arkansas             5279        AR1102-W39         55          1          $855,901      2          I
Little Rock, Arkansas             5291        AR1102-AD39        55          1        $20,497,604     2          I
Little Rock, Arkansas             5292        AR1102-AE39        55          1         $3,050,160     2          I
O’Neals, California                484         CA1112-A40         9          3         $3,852,862     1          I
Kerman, California                 961         CA1110-A40         9          3         $5,483,010     1          I
Peetz, Colorado                    888         CO1105-A39        14          3         $1,513,850     1          I
Wiggins, Colorado                 2971         CO1106-A40        14          3         $4,328,431     1          I
Joes, Colorado                    5258         CO1110-A40        14          3        $11,147,200     2          I
Merino, Colorado                  5430         CO1114-A40        14          3          $791,947      2          I
Nunn, Colorado                    5744         CO1107-A40        14          3         $5,172,500     2          I
Stoneham, Colorado                7013         CO1109-A40        14          3         $1,641,785     2          I
Englewood, Colorado              SAT03         CO1111-A45        14          3        $14,159,250     2          S
Greenwood Village, Colorado      SAT04         CO1112-A45        14          3        $19,533,444     2          S
Darien, Georgia 48                5045        GA1107-A40         63          3          $447,993      2          I
Plummer, Idaho                    3539         ID1103-A40         4          3        $12,285,758     1          I
Chicago, Illinois                 5337         IL1105-B40        45          3         $3,546,826     2          I
Burr Ridge, Illinois              7340         IL1104-A40        45          3        $11,250,000     2          I
Meriden, Iowa                     1836         IA1110-A39        40          3         $1,519,225     1          I
Hospers, Iowa                     4790         IA1119-A40        40          3         $8,325,402     2          I
Breda, Iowa                       5339         IA1116-A40        40          3         $2,611,909     2          I
Curran, Michigan                  7445         MI1110-A39        49          3         $8,622,754     2          I
Curran, Michigan                  7449         MI1110-B39        49          3         $1,107,903     2          I
Onamia, Minnesota                 TA08        MN1120-A47         39          3            $47,380     2         TA
Green City, Missouri               218        MO1105-A40         29          3        $10,280,916     1          I
Princeton, Missouri               4520        MO1106-A40         29          3        $11,395,606     2          I
Green City, Missouri              5094        MO1105-B40         29          3         $7,191,620     2          I
Princeton, Missouri               5728        MO1106-B39         29          3        $12,363,759     2          I
Princeton, Missouri               5729        MO1106-C39         29          3         $8,970,781     2          I
Princeton, Missouri               5730        MO1106-D40         29          3         $9,294,309     2          I
Princeton, Missouri               5731        MO1106-E40         29          3        $20,270,861     2          I
Santa Fe, New Mexico              1176        NM1106-A40         17          3         $1,264,450     1          I
Des Moines, New Mexico            1177        NM1104-A40         17          3         $3,237,000     1          I
Artesia, New Mexico               2054        NM1105-A40         18          3         $9,589,267     1          I

  47
     We selected the sample during our prior audit of RUS’ BIP pre-approval controls (American Recovery and
  Reinvestment Act of 2009—Broadband Initiatives Program—Pre-Approval Controls, 09703-0001-32, March 29,
  2013). During this audit (09703-0002-32), we determined 3 of the 86 sampled awards had been rescinded:
  Application IDs 5337 (Chicago, Illinois), 1176 (Santa Fe, New Mexico), and 2535 (Wheeling, West Virginia).
  48
     To save resources, we did not travel to this location; however, we completed the review by alternate means.

                                                                         AUDIT REPORT 09703-0002-32                27
   Recipient Headquarters        Application     Awardee ID   Cluster   Stratum   Total Award    NOFA    Project
           City, State               ID                       Sample                             Round    Type
Mora, New Mexico                    4925         NM1108-B40     17         3       $11,856,832     2        I
Taos, New Mexico                    5392         NM1107-A40     17         3       $63,768,671     2        I
Potsdam, New York                   3066         NY1103-A40     70         3        $5,328,642     1        I
Potsdam, New York                   4470         NY1103-B40     70         3       $27,832,767     2        I
Hammond, New York                   6596         NY1104-A40     70         3        $7,168,559     2        I
Akwesasne, New York                 7311         NY1105-A40     70         3       $10,562,517     2        I
Red Springs, North Carolina         5133         NC1107-B40     66         3       $19,947,739     2        I
Marshall, North Carolina            5166         NC1103-A40     68         3        $1,775,692     2        I
Shallotte, North Carolina           5424         NC1105-A40     66         3       $16,003,418     2        I
Wilkesboro, North Carolina          5562         NC1108-A40     68         3       $21,611,000     2        I
West Jefferson, North Carolina      5582         NC1104-A40     68         3       $28,985,294     2        I
Yadkinville, North Carolina         5927         NC1109-A40     68         3       $21,668,232     2        I
Burnsville, North Carolina          6389         NC1106-A40     68         3       $25,297,000     2        I
Belhaven, North Carolina            7282         NC1110-A40     67         3       $14,147,215     2        I
Sandy, Oregon                        702         OR1105-A40      5         3         $749,085      1        I
Gervais, Oregon                     1221         OR1104-A40      5         3         $628,860      1        I
Warm Springs, Oregon                4269         OR1107-A40      5         3        $5,445,920     2        I
Monroe, Oregon                      4512         OR1102-B40      5         3        $5,654,734     2        I
Estacada, Oregon                    5425         OR1109-A40      5         3        $2,360,393     2        I
Estacada, Oregon                    6325         OR1108-A40      5         3        $5,197,732     2        I
Warm Springs, Oregon                TA45         OR1107-B47      5         3         $200,000      2       TA
Dalhart, Texas                      1245         TX1115-B39     19         3        $3,065,440     1        I
Dalhart, Texas                      5382         TX1115-C39     19         3        $2,112,950     2        I
McLean, Virginia                   SAT02         VA1111-E45     54         3        $7,530,000     2        S
Spokane, Washington                 5818         WA1109-A40      4         3       $20,458,320     2        I
Longview, Washington                6267         WA1108-A40      5         3        $3,731,069     2        I
Okanogan, Washington                7158         WA1106-A40      4         3        $9,169,637     2        I
Wheeling, West Virginia             2535         WV1102-A40     53         3        $2,893,056     1        I
Riverton, West Virginia             4216         WV1104-A39     54         3        $8,529,310     2        I
Lost River, West Virginia           5324         WV1103-A40     54         3       $31,648,274     2        I
Madison, Wisconsin                   608         AL1104-A39     72         2        $3,892,920     1        I
Madison, Wisconsin                   627         MI1106-A39     72         2        $8,605,935     1        I
Madison, Wisconsin                  5491         WI1120-A39     72         2        $1,669,255     2        I
Madison, Wisconsin                  5494         WI1121-A39     72         2        $1,655,504     2        I
Madison, Wisconsin                  5526         WI1129-A39     72         2        $1,143,784     2        I
Madison, Wisconsin                  5529         WI1116-A39     72         2         $639,218      2        I
Madison, Wisconsin                  5530         WI1143-A39     72         2        $1,363,547     2        I
Madison, Wisconsin                  5549         WI1130-A39     72         2         $702,933      2        I
Madison, Wisconsin                  5607         WI1135-A39     72         2        $2,021,197     2        I
Madison, Wisconsin                  5624         WI1142-A39     72         2        $3,570,745     2        I
Madison, Wisconsin                  5633         WI1138-A39     72         2        $1,837,421     2        I
Madison, Wisconsin                  5635         WI1126-A39     72         2        $5,150,691     2        I
Baldwin, Wisconsin                  5792         WI1102-B40     39         3        $9,067,898     2        I
Madison, Wisconsin                  6020         MI1107-B39     72         2        $2,001,528     2        I
Reedsburg, Wisconsin                6057         WI1107-A39     44         3        $5,239,168     2        I
Oxford, Wisconsin                   6060         WI1106-B40     44         3       $20,007,501     2        I
                                         Total                                    $783,895,685




  28       AUDIT REPORT 09703-0002-32
Exhibit D: Statistical Plan – Sampling Methodology and Analysis
Results
Objective:

The sampling objective was to develop a random statistical sample for review, to analyze sample
data collected by the audit team, and to provide estimates for criteria being audited.

Audit Universe:

The universe used was identical to the universe we employed in our first phase of audit work for
BIP, Report 09703-0001-32, American Recovery and Reinvestment Act of 2009—Broadband
Initiatives Program—Pre Approval Controls, dated March 29, 2013. It consisted of
320 approved awards for BIP established by the Recovery Act and was obtained from RUS’
Broadband Division Director. The original universe dated October 29, 2010, contained
320 awards. The final universe size excludes eight awards in Alaska (6), Hawaii (1), and
American Samoa (1) from review due to travel and resource considerations 49 as well as the
28 awards that were rescinded at the time of sampling. Therefore, the final BIP Recovery Act
universe consisted of 284 awards spread across the United States.

Sample Design:

For this audit, we used a clustered multistage sample design. Grants and loans awarded under
BIP were spread across the United States. Because of travel considerations, we decided to look
at the dispersion of the awards across the country. The audit team used mapping software to plot
the 284 awards in the audit universe into a total of 70 geographic clusters based on travel
considerations. Therefore some clusters crossed State lines, some States had more than one
cluster, some “clusters” were singletons, 50 etc. We considered the clusters thus defined to be
reasonable selection unit, providing both nationwide 51 coverage and some economy with regard
to travel.

Two clusters included a significantly higher number of awards than the rest. We placed those
two in two separate census strata—stratum one and stratum two. The two large clusters
contained more awards than we could feasibly review; hence, we used a second-stage sampling
to select random samples of awards per each cluster for review.

In stratum three, we selected 20 out of 68 clusters at random; for those clusters, all awards per
cluster were included in the sample. Table 1 below shows the selected clusters and the number
of awards selected for review within each cluster.

49
   We did not perform awardee site visits during the first-phase audit (09703-0001-32). However, we designed our
sample with the knowledge that we would follow that audit of RUS’ pre-award controls with this audit of RUS’
post-award controls, during which we would visit the sample awardees’ headquarters locations. Therefore, to
minimize travel time and make the most of our resources, we elected to remove from our universe the awards with
headquarters in Alaska, American Samoa, and Hawaii.
50
   Singleton means the “cluster” contained only one award; no others were located nearby.
51
   Excluding Alaska, American Samoa, and Hawaii.

                                                                      AUDIT REPORT 09703-0002-32              29
Table 1: BIP phase 2 sample design structure



                 SRS                                                      Number
              order of                                      Number      of awards
               random                                      of awards      selected
                cluster   Cluster   Location of awards       in this    for review
              selection     ID           in cluster         cluster      at stage 2
Stratum 1         n/a       55      Arkansas                       16            10
Stratum 2        n/a        72      Wisconsin                     44            13
                  1         45      Illinois                       2             2
                  2         53      West Virginia                  1             1
                  3         29      Missouri                       7             7
                  4         44      Wisconsin                      2             2
                                    1 in Washington;
                 5          5                                      8             8
                                    7 in Oregon
                 6          17      New Mexico                     4             4
                 7          40      Iowa                           3             3
                 8          70      New York                       4             4
                                    2 in Washington;
                 9          4                                      3             3
                                    1 in Idaho
                 10         66      North Carolina                 2             2
Stratum 3                           2 in West Virginia;
                 11         54                                     3             3
                                    1 in Virginia
                 12         63      Georgia                        1             1
                                    1 in Wisconsin; 1 in
                 13         39                                     2             2
                                    Minnesota
                 14         18      New Mexico                     1             1
                 15         67      North Carolina                 1             1
                 16          9      California                     2             2
                 17         14      Colorado                       8             8
                 18         68      North Carolina                 5             5
                 19         49      Michigan                       2             2
                 20         19      Texas                          2             2
              Total number of awards in sample:                                 86

In some instances, we needed to use a third stage of sampling. If an awardee selected for review
at stage two included five or fewer advances (draws), our audit team reviewed all advances. If,
however, the number of advances was six or higher, we selected a simple random sample of five
advances per awardee for review (audit team selected the five advances with the smallest random
numbers on a master random number spreadsheet provided to them by the statistician). Note:

30     AUDIT REPORT 09703-0002-32
the audit team limited their review of award advances (drawdowns) for the sampled awards to
those advances processed in Rural Development’s Commercial Loan Servicing System within
the scope cutoff date of March 31, 2012.

The audit sample included three satellite awards. Due to the large number of broadband
subscriber installations requested for reimbursement on each drawdown request, we selected a
random sample of subscriber accounts for each satellite award to review.

In summary, we selected 86 awards clustered in 22 geographical areas. At stage one of sampling
we selected the 22 geographical areas, at stage two we selected random samples or censuses of
advances per awardee, and at stage three we selected random samples of payment requests. For
reporting purposes we are only projecting to the “awardee” level of sampling.

During the progression of the audit, three awards were rescinded. We counted those rescinded
awards as having no exceptions in any of the criteria tested. This approach provided more
conservative estimates.

We had no historical information, relevant to the criteria tested in this audit. In particular, we did
not know where to expect variance to occur. Therefore, the total sample size selected for review
was based on some best guess assumptions about our expected error rate. All estimates are
reported with corresponding precision and confidence levels.

Results:

To support the audit objectives, the audit team reviewed the sample of awards and measured
compliance and performance criteria associated with findings: (1) Performance Measures Do Not
Effectively Show Whether BIP is Successful in Accomplishing the Goals and Objectives of the
Recovery Act; and (3) RUS Advance Funding Was Disproportional.

Estimates are presented in the table below. All estimates and calculations shown are rounded to
the nearest whole number.




                                                              AUDIT REPORT 09703-0002-32          31
Table 2: BIP phase 2 - statistical projections

                                                      95% Confidence Interval                           Margin
                                     Standard                                             Actual         of
       Criteria       Estimate         Error           Lower            Upper             Found         Error
     Performance              65         12.758                38                91                19       27
     measure
         As a % of         22.7%            4.5%           13.3%             32.1%             6.7%       9.4%
          universe
     Dollar          $789,389,587   $213,775,977    $341,951,326    $1,236,827,848    $232,173,408        57%
     questioned
     based on
     performance
     measure
         As a % of         25.0%            6.8%           10.8%             39.2%             7.4%      14.2%
          universe
     Effectiveness            27           8.694                9                45                8        18
     of RUS Tool
         As a % of          9.6%            3.1%            3.2%             16.0%             2.8%       6.4%
          universe
     Dollar based    $340,175,256   $125,752,690     $76,971,852      $603,378,661    $100,051,546        77%
     on
     effectiveness
     of RUS tool
         As a % of         10.8%            4.0%            2.4%             19.1%             3.2%       8.3%
          universe

Based on our sample results, we project that:

     •    65 awardees (22.7 percent of universe) do not have adequate documentation to support
          performance measure data the awardee submitted in BCAS. We are 95 percent confident
          that between 38 (13.3 percent of universe) and 91 awardees (32.1 percent) have this
          issue.
     •    $789 million (25 percent of universe) was awarded to awardees who did not have
          adequate documentation to support performance measure data the awardee submitted in
          BCAS. We are 95 percent confident that this estimate is between $342 million
          (10.8 percent) and $1.2 billion (39.2 percent).
     •    For 27 awards (9.6 percent of the universe) RUS’ spreadsheet tool was ineffective. We
          are 95 percent confident that between 9 (3.2 percent) and 45 awards (16 percent) have
          this issue. 52



52
   Our audit team reviewed RUS’ “spreadsheet tool” for the quarter ending March 31, 2012. They verified the
number of subscribers reported in the March 2012 quarterly BCAS report for 40 awardees. The estimate presented
is based on those 40 awardees only. The remaining 46 awardees were counted as having no exceptions in this
criterion. The method used most likely lead to underestimation. However, we had no way of verifying the
information needed for the rest of the awardees in the sample. We are reporting the most conservative measure for
this estimate.

32        AUDIT REPORT 09703-0002-32
•   $340 million (10.8 percent) was awarded to awardees for whom the RUS tool was
    ineffective. We are 95 percent confident that this estimate is between $77 million
    (2.4 percent) and $603 million (19.1 percent).




                                                        AUDIT REPORT 09703-0002-32       33
Exhibit E: Scope Information for Advances

Exhibit E presents scope information for advances for the sample infrastructure, technical
assistance, and satellite awards, including those sample infrastructure awards that were
rescinded. For each sample award, the tables below show the awardee ID number and dollar
value of the advances approved on or before March 31, 2012, and the number and dollar value of
those advances reviewed. In addition, the satellite table shows the number and dollar value of
IPRs for the advances selected for review, as well as the number and dollar value of IPRs
actually reviewed.

Sample Infrastructure Awards

 Awardee ID       Total Award      Advances       Advances        Reviewed        Reviewed
                                  Approved on    Approved on      Advances        Advances
                                   or before      or before       (Number)        (Dollars)
                                   March 31,      March 31,
                                     2012           2012
                                   (Number)       (Dollars)
AL1104-A39           $3,892,920        2             $681,944         2               $681,944
AR1102-AD39         $20,497,604        6             $952,955         5               $604,768
AR1102-AE39          $3,050,160        6             $466,345         5               $284,316
AR1102-B39           $7,285,202        4             $234,965         4               $234,965
AR1102-C39          $38,288,349        6           $2,217,612         5             $2,198,418
AR1102-F39           $5,129,575        9             $959,777         5               $797,724
AR1102-G39           $4,665,116        7             $563,271         5               $193,111
AR1102-K39          $27,644,292        0                    $0        0                     $0
AR1102-N39          $10,328,319        6           $1,006,241         5               $597,733
AR1102-P39           $1,005,566        7             $904,335         5               $232,914
AR1102-W39             $855,901        6             $168,017         5               $167,347
CA1110-A40           $5,483,010        5           $4,358,374         5             $4,358,374
CA1112-A40           $3,852,862        1              $18,201         1                $18,201
CO1105-A39           $1,513,850       11           $1,091,612         5               $527,338
CO1106-A40           $4,328,431        3             $250,378         3               $250,378
CO1107-A40           $5,172,500        5          $282,373.50         5            $282,373.50
CO1109-A40           $1,641,785        3             $672,166         3               $672,166
CO1110-A40          $11,147,200       13           $1,761,689         5               $976,286
CO1114-A40             $791,947        4             $295,028         4               $295,028
GA1107-A40             $447,993        0                    $0        0                     $0
IA1110-A39           $1,519,225        4           $1,146,232         4             $1,146,232
IA1116-A40           $2,611,909        4           $1,012,279         4             $1,012,279
IA1119-A40           $8,325,402        7           $6,574,702         5             $4,236,416


34     AUDIT REPORT 09703-0002-32
     Awardee ID        Total Award         Advances      Advances       Reviewed      Reviewed
                                          Approved on   Approved on     Advances      Advances
                                           or before     or before      (Number)      (Dollars)
                                           March 31,     March 31,
                                             2012          2012
                                           (Number)      (Dollars)
ID1103-A40                  $12,285,758        2            $282,989       2              $282,989
IL1104-A40                  $11,250,000        4            $621,791       4              $621,791
IL1105-B40 53                $3,546,826        0                   $0      0                    $0
MI1106-A39                   $8,605,935        3          $5,349,245       3            $5,349,245
MI1107-B39                   $2,001,528        0                   $0      0                    $0
MI1110-A39                   $8,622,754        4          $1,603,723       4            $1,603,723
MI1110-B39                   $1,107,903        4            $735,383       4              $735,383
MO1105-A40                  $10,280,916        7          $9,491,619       5            $7,140,720
MO1105-B40                   $7,191,620        1            $242,907       1              $242,907
MO1106-A40                  $11,395,606        1          $6,457,922       1            $6,457,922
MO1106-B39                  $12,363,759        2          $5,064,969       2            $5,064,969
MO1106-C39                   $8,970,781        2          $4,381,415       2            $4,381,415
MO1106-D40                   $9,294,309        1          $2,440,000       1            $2,440,000
MO1106-E40                  $20,270,861        1          $4,275,890       1            $4,275,890
NC1103-A40                   $1,775,692        3            $624,129       3              $624,129
NC1104-A40                  $28,985,294        7         $19,729,121       5            $9,916,394
NC1105-A40                  $16,003,418        4          $8,773,055       4            $8,773,055
NC1106-A40                  $25,297,000        8            $946,303       5              $484,508
NC1107-B40                  $19,947,739        2          $3,059,840       2            $3,059,840
NC1108-A40                  $21,611,000        2          $6,391,237       2            $6,391,237
NC1109-A40                  $21,668,232        5          $8,334,620       5            $8,334,620
NC1110-A40                  $14,147,215        4          $6,128,659       4            $6,128,659
NM1104-A40                   $3,237,000        8          $3,056,848       5            $1,719,461
NM1105-A40                   $9,589,267        3          $5,373,848       3            $5,373,848
NM1106-A40 54                $1,264,450        0                   $0      0                    $0
NM1107-A40                  $63,768,671        3          $1,395,151       3            $1,395,151
NM1108-B40                  $11,856,832        1             $23,687       1               $23,687
NY1103-A40                   $5,328,642       11          $1,924,810       5              $562,026
NY1103-B40                  $27,832,767       10          $7,346,221       5            $3,385,690
NY1104-A40                   $7,168,559        7          $2,117,149       5              $955,687
NY1105-A40                  $10,562,517        0                   $0      0                    $0
OR1102-B40                   $5,654,734       10          $2,531,424       5              $873,281


53
     Award was rescinded.
54
     Award was rescinded.

                                                                AUDIT REPORT 09703-0002-32    35
     Awardee ID        Total Award      Advances       Advances       Reviewed   Reviewed
                                       Approved on   Approved on      Advances   Advances
                                        or before      or before      (Number)   (Dollars)
                                        March 31,     March 31,
                                          2012           2012
                                        (Number)       (Dollars)
OR1104-A40                  $628,860         3            $621,790       3           $621,790
OR1105-A40                  $749,085         1             $55,032       1            $55,032
OR1107-A40                $5,445,920         4          $1,746,064       4         $1,746,064
OR1108-A40                $5,197,732         0                   $0      0                 $0
OR1109-A40                $2,360,393         1             $12,840       1            $12,840
TX1115-B39                $3,065,440         1          $1,454,781       1         $1,454,781
TX1115-C39                $2,112,950         0                   $0      0                 $0
WA1106-A40                $9,169,637         6          $1,072,399       5           $933,275
WA1108-A40                $3,731,069         2            $302,580       2           $302,580
WA1109-A40               $20,458,320         0                   $0      0                 $0
WI1102-B40                $9,067,898        10          $8,629,895       5         $4,665,990
WI1106-B40               $20,007,501         6         $10,094,291       5         $9,410,984
WI1107-A39                $5,239,168         4          $1,212,740       4         $1,212,740
WI1116-A39                  $639,218         0                   $0      0                 $0
WI1120-A39                $1,669,255         2             $64,409       2            $64,409
WI1121-A39                $1,655,504         2             $52,797       2            $52,797
WI1126-A39                $5,150,691         2            $262,524       2           $262,524
WI1129-A39                $1,143,784         2             $52,769       2            $52,769
WI1130-A39                  $702,933         0                   $0      0                 $0
WI1135-A39                $2,021,197         0                   $0      0                 $0
WI1138-A39                $1,837,421         2             $52,123       2            $52,123
WI1142-A39                $3,570,745         2            $249,943       2           $249,943
WI1143-A39                $1,363,547         0                   $0      0                 $0
WV1102-A40 55             $2,893,056         0                   $0      0                 $0
WV1103-A40               $31,648,274         7          $2,420,572       5         $1,057,727
WV1104-A39                $8,529,310         2            $575,234       2           $575,234
Totals                  $742,425,611       298        $173,255,235      232      $139,150,140




55
     Award was rescinded.

36        AUDIT REPORT 09703-0002-32
Sample Technical Assistance Awards

     Awardee ID         Total Award                          Advances                             Advances                              Reviewed                Reviewed
                                                             Approved                            Approved on                            Advances                Advances
                                                            on or before                          or before                             (Number)                (Dollars)
                                                             March 31,                            March 31,
                                                                2012                                2012
                                                             (Number)                             (Dollars)
MN1120-A47                               $47,380                 1                                    $47,380                               1                                    $47,380
OR1107-B47                              $200,000                 1                                   $200,000                               1                                   $200,000
Totals                                  $247,380                        2                                 $247,380                          2                                   $247,380

Sample Satellite Awards
                                             Advances Approved on or



                                                                       Advances Approved on or




                                                                                                                                                                Eligible IPRs Reviewed



                                                                                                                                                                                          Eligible IPRs Reviewed
                                             before March 31, 2012



                                                                       before March 31, 2012



                                                                                                   Reviewed Advances



                                                                                                                        Reviewed Advances




                                                                                                                                            Reviewed Advances
                                                                                                                        Eligible IPRs for




                                                                                                                                            Eligible IPRs for
                          Total Award
         Awardee ID




                                                                                                                                            (Dollars) 56
                                             (Number)




                                                                                                   (Number)



                                                                                                                        (Number)




                                                                                                                                                                (Number)
                                                                       (Dollars)




                                                                                                                                                                                          (Dollars)
CO1111-A45            $14,159,250                           3             $865,500                         3                1,154             $865,500               65                   $48,750
CO1112-A45            $19,533,444                           9           $7,468,482                         5               11,207           $4,471,593               85                   $33,915
VA1111-E45             $7,530,000                           6           $1,930,500                         5                1,141           $1,711,500               65                   $97,500
Totals                $41,222,694                          18          $10,264,482                        13               13,502           $7,048,593              215                  $180,165




56
  The dollar values of the eligible IPRs for reviewed advances and the dollar values of the reviewed advances are
the same—advances were paid on only the eligible IPRs.

                                                                                                                       AUDIT REPORT 09703-0002-32                                        37
38   AUDIT REPORT 09703-0002-32
Agency's Response




                  USDA’S
         RURAL UTILITIES SERVICE’S
         RESPONSE TO AUDIT REPORT




                         AUDIT REPORT 09703-0002-32   39
TO:           Gil H. Harden                                             August 1, 2013
              Assistance Inspector General for Audit
              Office of Inspector General

THRU:         John C. Padalino /s/ John C. Padalino
              Administrator
              Rural Utilities Service

              John Dunsmuir    /s/ John Dunsmuir
              Acting Director
              Financial Management Division

FROM:         Doug O’Brien     /s/ Patrice H. Kunesh for
              Acting Under Secretary
              Rural Development

SUBJECT:      Audit Number 09703-0002-32
              American Recovery and Reinvestment Act of 2009 – Broadband
              Initiatives Program – Post Award Controls


Thank you for the opportunity to comment on OIG’s recent audit of the Rural Utilities
Service’s (RUS) Broadband Initiative Program (BIP) post-award controls. RUS
appreciates the Inspector General’s input into ensuring that BIP meets its statutory and
regulatory missions and that RUS has established sufficient controls over BIP awardees’
fulfillment of their grant and loan/grant agreements.

The Agency is pleased that OIG’s first phase of its audit found that RUS implemented
BIP in compliance with the Recovery Act and found no instances of ineligibility of any
BIP-funded project. We are also pleased that OIG’s second phase of its audit found that
RUS’ advances of BIP funds were substantially supported out of hundreds of advances.
We understand that OIG found two instances where advances were not made
proportionately to the amount of loan and grant funding awarded to the project. We have
corrected both instances and taken corrective measures to ensure this will not reoccur.
We also appreciate the OIG’s comments regarding the need for adequate controls to
measure and transparently report on how BIP is meeting its subscribership goals. RUS
Audit Number 09703-0002-32
American Recovery and Reinvestment Act of 2009
Broadband Initiatives Program                                                         2


has now published its quarterly subscribership numbers and will continue to publish
updated numbers going forward. The following is the agency’s response to the individual
findings and recommendations.


Finding 1: Performance Measures Do Not Effectively Show BIP Outcomes

Recommendation 1
Capture and report performance data that directly measure the impact of each award on
the expansion of broadband service in underserved and unserved rural areas.

The Agency does assess the impact of each award on the expansion of broadband service.
On a quarterly basis, all BIP awardees are required to report on the number of subscribers
receiving new or improved broadband service as a result BIP. As OIG cited in its audit
report, RUS began publishing the results of these quarterly reports on its website.
However, the Agency cannot provide data related directly to new or improved broadband
service solely within underserved or unserved rural areas of an awardee’s total service
area, as that level of detail is not set out in our legal agreement with awardees. In
addition to the legal issues OGC advises that such a new requirement would raise, the
agency would have to make substantial changes to its reporting system. Given that BIP is
a one-time program for which all projects must be completed by September 30, 2015, we
do not believe such use of taxpayer funding would be appropriate.

As a general matter, RUS has required individual subscriber reporting in its programs for
decades, principally to gage the financial feasibility of a project. And while we believe
that subscriber numbers are more than just financially important, we do not believe that
they are the measure of success of the BIP program. In addition to bringing crucial utility
infrastructure to rural areas for future economic growth, RUS also believes the success of
the BIP program is tied to the Recovery Act’s purpose of job creation, which large-scale
infrastructure project such as these undoubtedly create.

For the reasons stated above, we feel the present public reporting of new or improved
broadband service throughout an awardee’s service area is an adequate measure of the
impact of each award.


Recommendation 2
Quarterly update the performance measurements on the Rural Development Recovery
Act broadband webpage to compare the actual numbers of BIP subscribers reported by
awardees as of the end of the quarter to the projected numbers of subscribers.

As stated above, the Agency has already begun publishing quarterly updates of awardees’
performance measurements on its program webpage. We will also take steps in future
Audit Number 09703-0002-32
American Recovery and Reinvestment Act of 2009
Broadband Initiatives Program                                                         3


reports to include the number of subscribers projected to be connected through the
program.


Recommendation 3
To ensure better reliability of awardee-reported performance data, revise Broadband
Collection and Analysis System (BCAS) guides for awardees and staff to provide detailed
and clear instructions relative to the entry and review of BIP performance data in BCAS.

While RUS has two User Guides in place for the BCAS System, one for internal users
and one for our clients, we understand there was some confusion with respect to the new
or improved subscribership numbers required in one section of the BCAS report. We
have developed additional guidance to better explain what should be reported in that
section and will provide that written guidance to all active awardees by September 30,
2013. We have also established a practice whereby our Field Staff conducts reviews of
the subscribership numbers being reported each quarter by BIP awardees and works with
awardees to correct any problems. While OIG found some issues with the first such
reviews conducted by our Field Staff, we have refined our practices and developed
additional written guidance for our staff to improve the results and distributed that
guidance to our staff.


Finding 2: Grant Award Components Were in Excess of 75 Percent Cap

Recommendation 4
To ensure transparency and equitable treatment of BIP awardees and, to the extent
practicable, formally notify all BIP awardees whose awards include loan components
that RUS may allow them to substitute equity for the loan component.

The Agency does not agree with OIG’s opinion that the grant award component was in
excess of the 75% cap, nor that RUS administered BIP differently than outlined in the
NOFA, due to awardees being able to substitute their own equity for the loan component.
Though the ability to utilize equity funding in lieu of the loan component was not
specifically stated in the NOFA, RUS did take steps to inform all applicants through
FAQs posted to our website and during our national workshops. Additionally, even now,
any BIP awardee can pay off its loans, or any loan advance, in full at any point without a
prepayment penalty. Therefore, all awardees already have the ability, pursuant to the
existing legal arrangements, to substitute their own equity in lieu of the RUS loan.

While we appreciate OIG’s suggestion that RUS notify all BIP awardees of their ability
to substitute equity for the loan, we believe that at this late date, the Agency would be
overburdened by such an undertaking, while it is concentrating on providing advances to
complete projects before the statutory deadline that funds may be used. OIG accurately
cites that the principal reason RUS entertained such substitutions was to make and close
Audit Number 09703-0002-32
American Recovery and Reinvestment Act of 2009
Broadband Initiatives Program                                                          4


as many awards in furtherance of the Recovery Act. However, at this stage, OGC has
advised against sending out such correspondence, given that such actions would
necessitate enormous amounts of limited RUS and OGC resources to effectuate the
changed legal relationships for no benefit to awardees, because the documents already
provide an existing legal right to prepay the loan with no penalty. Additionally, there
was no legal benefit conferred to awardees in which the loan component was substituted
with equity, such that no present awardee is disadvantaged.


Recommendation 5
For future broadband programs, publish and follow clear and consistent policies and
procedures relative to grant/loan funding mixes. Specifically, such policies and
procedures should clearly describe the proportional relationships of a project’s grant,
loan, and equity components to the total award and to the total project costs, to include
any limits thereon.

The Agency believes that we published and followed clearly defined policies and
procedures relative to the grant/loan funding mixes. At this time the RUS does not
administer any other program which includes both loan and grant funding components.
Should that change in the future, the Agency will implement clear and concise written
guidance defining policies and procedures for advancing funds under new requirements.


Finding 3: BIP Funds Were Not Always Proportionally Advanced

Recommendation 6
Review all grant/loan combination awards that are still actively drawing funds, including
those for which equity was substituted for the loan component, to ensure the advances
already made were proportional. For all identified as disproportional to the funding
ratio, take corrective action.

We appreciate OIG bringing to our attention two projects where advances were not made
proportionately to the amount of grant, loan and equity funding awarded for a project.
We have taken steps to correct both instances. While the Agency already ensures funds
are being advanced appropriately when advancing funding on a project, we will also go
back and review each BIP award to ensure that funds were, and are, being advanced
correctly in proportion to the amount of loan, grant, or equity funding awarded to each
project. This review will be completed by September 30, 2013.


Recommendation 7
Implement written procedures to ensure future grant/loan combination funds are
advanced in proportion to the amount of the award made in the forms of grants and
loans, including those for which equity was substituted for the loan component.
Audit Number 09703-0002-32
American Recovery and Reinvestment Act of 2009
Broadband Initiatives Program                                                       5


As noted above, the Agency has taken corrective action and developed written
procedures for staff which will ensure all future loan/grant combination awards are
advanced in proportion to the amount of loan, grant and equity funding associated with
the project. We have incorporated this additional written guidance into our FRS Staff
Instructions and distributed the updated guidance to our staff.
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
